SEC.gov |  Controls of Negotiated Settlements
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Controls of Negotiated Settlements
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document. The printed
document may contain agency comments, charts, photographs, appendices,
footnotes and page numbers which may not be reproduced in this electronic
version. If you require a printed version of this document contact the
United States Securities and Exchange Commission, Office of Inspector General,
Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C. 20549 or call (202)
942-4460.
Controls of Negotiated Settlements
Audit No. 218September 20, 1995
SUMMARY
Controls over negotiated settlements of enforcement
cases were generally adequate, based on our review. We are recommending
several enhancements, including: creation of a separate unit in the Division
of Enforcement to monitor compliance with settlement terms; earlier consideration
of settlement issues by the Commission; consultation with the Branch of
Regional Office Assistance (BROA) for all settlements; and establishing
a data base of prior settlements.
OBJECTIVES AND SCOPE
Our primary objective was to determine whether
controls over settlements were adequate. Also, we sought to determine whether
the settlement process could be made more efficient, and whether monitoring
of settlement terms could be improved.
We interviewed staff in the Division of Enforcement
and three regions (Northeast, Central, and Pacific), and reviewed a judgement
sample of 24 negotiated settlements. The audit was performed between September
1994 and May 1995.
BACKGROUND
Most investigations eventually result in a negotiated
settlement between the Commission and the subject, resolving the allegations.
Typically, the subject neither admits nor denies the violation of the securities
laws, and agrees to the imposition of sanctions, such as disgorgement of
profits, penalties, and a bar from the securities industry. Through
settlements, the Commission avoids time-consuming litigation while still
protecting investors.
The staff needs approval from the Commission to
enter into settlement negotiations, and the Commission approves virtually
all settlements.1 Settlement offers are reviewed based
on the facts and circumstances of the case, including the severity of the
alleged conduct, the sanctions imposed in similar, prior cases, policy
considerations, litigation risk, and the likelihood of future violations.
AUDIT RESULTS
Generally, controls over negotiated settlements
appeared adequate. Regional cases are reviewed by the Regional Administrator,
the Branch of Regional Office Assistance (BROA), relevant headquarters
divisions, and the Office of the General Counsel (OGC). Headquarters cases
are reviewed by senior Enforcement managers, other divisions, and OGC.
All settlements are reviewed and approved by the Commission, which helps
ensure consistency with policy.
The Commission has established procedures for evaluating
financial hardship claims by subjects. Subjects must submit sworn financial
statements, which demonstrate an inability to pay a disgorgement or penalty.
Repayment is required if the financial statements prove to be false.
As discussed below, we are recommending several
enhancements to settlement procedures.
Settlement follow-up
After a settlement is reached, the lead attorney
for the case monitors payments of disgorgements and penalties under it.
However, enforcement attorneys generally are not trained in collection
procedures, and their primary focus is on current cases.
The Justice Department has a central unit with
trained staff to monitor collection of funds owed it. This approach makes
sense for the Commission, especially considering that settlement claims
total millions of dollars.
Recommendation A
The Division of Enforcement should improve collection
procedures for settlements. For example, it should consider establishing
a central unit to monitor collection of settlement payments. Paralegals
assigned to such a unit should be given appropriate training.
Consideration of Settlement Issues
Several staff we interviewed indicated that earlier
consideration of settlement issues would be helpful and save time. Currently,
at the conclusion of an investigation, the staff receive authority to negotiate
a settlement through an action memorandum (which also requests authorization
for enforcement action, such as the filing of civil litigation).
The action memorandum does not discuss the general
parameters of an acceptable settlement. If this issue were raised by the
staff and considered by the Commission, the staff would have a better basis
for settlement negotiations.
Recommendation B
The Division of Enforcement and the regions should
discuss the general parameters of an acceptable settlement in their action
memorandum requesting negotiation authority. The action memorandum should
request the Commission's views on this issue.2
Wells submissions
Subjects sometimes provide an offer of settlement
with their Wells submissions.3 These offers are reviewed
by the staff and the Commission, and may provide a starting point for settlement
negotiations. A number of staff told us that a settlement offer provided
with the Wells submission is very useful, as it expedites the settlement
process.
Some subjects (particularly those associated with
small companies) may not be aware that a settlement offer can be included
with their Wells submission.
Recommendation C
The Division of Enforcement and the regions should
informally advise subjects that a settlement offer may be included
with their Wells submission. The staff should make it clear that
subjects are not required to make a settlement offer.
Review by BROA
The Branch of Regional Office Assistance reviews
all settlements negotiated by the regions, to ensure consistency with Commission
policy. BROA does not routinely obtain copies of settlements negotiated
by the Division of Enforcement, although senior Division staff informally
discuss some settlements with BROA.
Obtaining copies of Division settlements would
help BROA provide assistance to the regions on Commission settlement policy.
Recommendation D
The Branch of Regional Office Assistance should
obtain copies of settlements negotiated by the Division of Enforcement.
Settlement Data Base
Many staff we interviewed felt that more information
on acceptable settlements would be helpful in conducting negotiations.
A data base containing prior, approved settlements could provide this information.
Recommendation E
The Division of Enforcement should establish a
data base of settlement information, with appropriate controls. It should
consult with the Office of Information Technology as necessary.
Endnotes
1 The Secretary has delegated authority to approve
settlements of administrative proceedings where complete relief is obtained
and the Commission reviewed the initial order instituting the action.
2 A prejudgment waiver from the subject would be necessary
for administrative proceeding settlements.
3 A Wells submission is a written statement
to the Commission, in which subjects on their own initiative set forth
their interests and position in regard to the investigation.  It is
generally submitted as the staff is preparing a recommendation for the
commencement of an enforcement proceeding (17 CFR section 202.5(c)).
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us